 

E-Mail Address:
contact@cocklelegalbriefs.com

@OCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-1257

MARK BRNOVICH, IN HIS OFFICIAL CAPACITY
AS ARIZONA ATTORNEY GENERAL, ET AL.,
Petitioners,
v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
ELECTION INTEGRITY PROJECT CALIFORNIA, INC. AND ELECTION INTEGRITY
PROJECT ARIZONA, LLC IN SUPPORT OF PETITIONERS in the above entitled case complies
with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 4438 words,

excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 1st day of June, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

k GEHERAL HOTARY-State of Nebraska /
RENEE J. GOSS Konse. 0. Mean Oude Ke Ghh
= fy Comm. Exp. September 8,202 | 7

 

Notary Public Affiant 39803
